                                                                        AUDIT




 U.S. FISH AND WILDLIFE SERVICE WILDLIFE AND SPORT FISH
 RESTORATION PROGRAM GRANTS
 Awarded to the State of Vermont, Agency of Natural Resources, Department
 of Fish and Wildlife, From July 1, 2010, Through June 30, 2012




Report No.: R-GR-FWS-0014-2013                                       August 2014
               OFFICE OF
               INSPECTOR GENERAL
               U.S.DEPARTMENT OF THE INTERIOR


                                                                                           August 1, 2014
Memorandum

To:            Daniel M. Ashe
               Director, U.S. Fish and Wildlife Service

From:          Charles Haman/ / '.v'A
               Central Regio(Ma~r A~ Inspections, and Evaluations

Subject:       Final Audit Report- U.S. Fish and Wildlife Service Wildlife and Sport Fish
               Restoration Program Grants Awarded to the State ofVermont, Agency ofNatural
               Resources, Department ofFish and Wildlife, from July 1, 2010, Through June 30,
               2012
               Report No. R-GR-FWS-0014-2013

        This report presents the results of our audit of costs claimed by the State of Vermont,
Agency ofNatural Resources, Department ofFish and Wildlife (Department), under grants
awarded by the U.S. Fish and Wildlife Service (FWS). FWS provided the grants to the
Department under the Wildlife and Sport Fish Restoration Program (Program). The audit
included claims totaling $19 million on 45 grants that were open during the Department's fiscal
years that ended June 30, 2011, and June 30, 2012 (see Appendix 1). The audit also covered the
Department's compliance with applicable laws, regulations, and FWS guidelines, including those
related to the collection and use of hunting and fishing license revenues and the reporting of
program mcome.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. We questioned costs totaling $57,497 due to ineligible and unsupported
grant expenditures, inaccurate accounting and reporting of program income, and incorrect
calculations of in-kind contributions. We also found that the Department (1) potentially diverted
license revenue, (2) did not maintain adequate control over real property purchased with Program
funds, (3) did not report program income correctly, (4) could not provide support used to allocate
payroll costs, and (5) did not adequately manage its grant-and-license-revenue-funded
equipment.

        We provided a draft report to FWS for a response. In this final report, we summarize the
Department's and FWS Region 5 's responses, as well as our comments on the responses. We list
the status of the recommendations in Appendix 3.

        Please provide us with a corrective action plan based on our recommendations by
October 30, 2014. The plan should provide information on actions taken or planned to address
the recommendations, the target dates, and title(s) of the official(s) responsible for
implementation.



                         Office of Audits, Inspections, and Evaluations   I Lakewood, CO
       Please address your response to me at:

                      U.S. Department of the Interior
                      Office of Inspector General
                      12345 West Alameda Parkway, Suite 300
                      Lakewood, CO 80228

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit, inspection, and evaluation reports issued; actions taken to
implement our recommendations; and recommendations that have not been implemented.

      If you have any questions regarding this report, please contact the audit team leader,
Debby Darby, at 703-487-8065 or me at 303-236-9243.

cc:    Regional Director, Region 5, U.S. Fish and Wildlife Service




                                                2
Table of Contents
Introduction ............................................................................................................. 1
   Background .......................................................................................................... 1
   Objectives ............................................................................................................ 1
   Scope ................................................................................................................... 1
   Methodology........................................................................................................ 1
   Prior Audit Coverage ........................................................................................... 2
Results of Audit ...................................................................................................... 4
   Audit Summary ................................................................................................... 4
   Findings and Recommendations.......................................................................... 5
Appendix 1 ............................................................................................................ 17
Appendix 2 ............................................................................................................ 19
Appendix 3 ............................................................................................................ 20
Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport
Fish Restoration Act (Acts) 1 established the Wildlife and Sport Fish Restoration
Program (Program). Under the Program, the U.S. Fish and Wildlife Service
(FWS) provides grants to States to restore, conserve, manage, and enhance their
sport fish and wildlife resources. The Acts and Federal regulations contain
provisions and principles on eligible costs and allow FWS to reimburse States up
to 75 percent of the eligible costs incurred under the grants. The Acts also require
that hunting and fishing license revenues be used only for the administration of
the States’ fish and game agencies. Finally, Federal regulations and FWS
guidance require States to account for any income earned using grant funds.

Objectives
We conducted this audit to determine if the State of Vermont, Agency of Natural
Resources, Department of Fish and Wildlife (Department)—

       •    claimed the costs incurred under the Program grants in accordance with
            the Acts and related regulations, FWS guidelines, and grant agreements;
       •    used State hunting and fishing license revenues solely for fish and wildlife
            program activities; and
       •    reported and used program income in accordance with Federal regulations.

Scope
Audit work included claims totaling approximately $19 million on the 45 grants
open during the State fiscal years (SFYs) that ended June 30, 2011, and June 30,
2012 (see Appendix 1). We report only on those conditions that existed during
this audit period. We performed our audit at the Department’s office in
Montpelier, VT, and visited one regional office, one wildlife habitat management
area, two fish culture stations, two boat ramps, and a shooting range (see
Appendix 2). We performed this audit to supplement—not replace—the audits
required by the Single Audit Act Amendments of 1996 and by Office of
Management and Budget Circular A-133.

Methodology
We conducted this audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We tested records and
conducted auditing procedures as necessary under the circumstances. We believe

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.




                                                                                      1
that the evidence obtained from our tests and procedures provides a reasonable
basis for our findings and conclusions based on our audit objectives.

Our tests and procedures included—

   •   examining the evidence that supports selected expenditures charged to the
       grants by the Department;
   •   reviewing transactions related to purchases, direct costs, drawdowns of
       reimbursements, in-kind contributions, and program income;
   •   interviewing Department employees to ensure that personnel costs charged
       to the grants were supportable;
   •   conducting site visits to inspect equipment and other property;
   •   determining whether the Department used hunting and fishing license
       revenues solely for the administration of fish and wildlife program
       activities; and
   •   determining whether the State passed required legislation assenting to the
       provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor-
and license-fee accounting systems and tested their operation and reliability.
Based on the results of our initial assessments, we assigned a level of risk to these
systems and selected a judgmental sample of transactions for testing. We did not
project the results of the tests to the total population of recorded transactions or
evaluate the economy, efficiency, or effectiveness of the Department’s operations.

We relied on computer-generated data for other direct costs and personnel costs to
the extent that we used these data to select Program costs for testing. Based on our
test results, we either accepted the data or performed additional testing. For other
direct costs, we took samples of costs and verified them against source documents
such as purchase orders, invoices, receiving reports, and payment documentation.
For personnel costs, we selected Department employees who charged time to
Program grants and verified their hours against timesheets and other supporting
data.

Prior Audit Coverage
On June 3, 2008, we issued “Audit on U.S. Fish and Wildlife Service Wildlife and
Sport Fish Restoration Program Grants Awarded to the State of Vermont, Agency
of Natural Resources, Fish and Wildlife Department, From July 1, 2005, Through
June 30, 2007” (Report No. R-GR-FWS-0013-2007). We followed up on all of
the recommendations in the report and found that the U.S. Department of the
Interior, Office of the Assistant Secretary for Policy, Management and Budget,
considered the recommendations resolved and implemented. Although FWS
considers the prior audit recommendations related to equipment management
resolved, we still identified problems in this area.




                                                                                   2
On September 16, 2004, we issued “Audit Report on the U.S. Fish and Wildlife
Service Federal Assistance Grants Administered by the State of Vermont, Agency
of Natural Resources, Department of Fish and Wildlife, from July 1, 2001,
through June 30, 2003” (Report No. R-GR-FWS-0005-2004). We followed up on
all of the recommendations in the report and found that the Office of the Assistant
Secretary for Policy, Management and Budget considered all but two of the
recommendations resolved and implemented. The open recommendations (E.1
and E.2) are related to an inadequate land management system and are noted in
Appendix 3.

We also reviewed single audit reports and comprehensive annual financial reports
for SFYs 2011 and 2012. The SFY 2012 single audit report included two findings
related to reporting of indirect costs and annual hunting and fishing license
certification. These issues did not affect the Department’s Program grant funding.




                                                                                  3
Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant
agreement provisions and requirements of the Acts, regulations, and FWS
guidance. We identified, however, the following conditions that resulted in our
findings, including questioned costs totaling $57,497.

   A. Questioned Costs: $57,497

       1. Unsupported Other Direct Costs: $16,378 (Federal share)
          The Department did not have adequate supporting documentation for
          two grant expenditures.

       2. Excess Reimbursement Due to Incorrect Reporting of Program
          Income: $15,149
          The Department incorrectly reported program income on nine Federal
          financial reports. It received excess reimbursement because it did not
          correctly account for the 75 percent Federal share of program income
          on the aquatic education grant, resulting in an overstatement of the
          State’s share of expenditures.

       3. Ineligible and Unsupported Mileage Expenses: $14,469 (Federal
          share)
          The Department improperly charged mileage expenses totaling $1,586
          (Federal share) to the aquatic education grant and did not have
          supporting documentation for mileage expenses of $12,883 (Federal
          share) charged to the boat access maintenance grant.

       4. Potential Excess Reimbursement Due to Overstated In-Kind
          Contributions: $11,501
          The Department may have received excess reimbursement because it
          overstated the State share of expenditures by $11,501 due to inaccurate
          calculations of in-kind contributions.

   B. Potential License Revenue Diversion. The Department did not provide
      adequate supporting documentation for a journal entry charging $3,841 to
      license revenues.

   C. Inadequate Control of Real Property. The Department has identified
      potential encroachments onto license- and Program-funded Wildlife
      Management Areas. In addition, the Department had not reconciled its
      Program-funded real property records with FWS’ records.




                                                                                   4
   D. Unreported Program Income. The Department did not report revenue
      totaling $7,260 from selling fish eggs or $1,200 from fish breeding and
      importing permit sales on the Federal financial reports for the hatchery
      operations grants.

   E. Unsupported Payroll Cost Allocations. The Department could not
      provide support for allocating 75 percent of the accounting staff’s time to
      the fish and wildlife coordination grant.

   F. Inadequate Equipment Management and Records. The Department did
      not maintain accurate and complete equipment records or ensure grant-
      and license-funded equipment are used solely for fish and wildlife
      purposes.

Findings and Recommendations
A. Questioned Costs: $57,497

   1. Unsupported Other Direct Costs: $16,378

The Department occasionally requires infrastructure construction and repairs at its
facilities. We found that rather than contracting with outside firms, the
Department obtained such services from other State agencies. The Department of
Environmental Conservation’s engineering division prepared a journal entry
charging State Wildlife Habitat Development grant W-46-D-31 $14,726 ($11,045
Federal share) to construct a storage building used for multiple purposes at the
Sandbar Wildlife Management Area. Neither Department, however, could provide
documentation supporting the cost.

We found that the Department also hired temporary staff through an agency to
perform administrative duties. The Department paid the agency based on invoices
listing the employee name, the hourly rate, and the number of hours worked. A
portion of the services, totaling $7,111 ($5,333 Federal share), was charged to
grant FW-19-C-21. The Department, however, could not provide support for the
allocation of costs among the various purposes benefited.

The Code of Federal Regulations (2 C.F.R. part 225, Appendix A, Subsections
C.1., a, b, and j) specifies that to be allowable costs must be necessary and
reasonable, allocable, and adequately documented. In addition, 2 C.F.R. part 225,
Appendix A, Subsection C.3.a., states that to be allowable under Federal awards,
a cost is allocable to a particular cost objective if the goods or services involved
are chargeable in accordance with relative benefits received.

The Department could not ensure that Program grants are charged only for goods
and services benefiting the grants because it did not follow regulations requiring
equitable allocation of expenses and did not adequately review journal entries
prepared by other State departments.


                                                                                     5
 Recommendations

 We recommend that FWS work with the Department to:

    1. Resolve the unsupported costs of $16,378 (Federal share); and

    2. Ensure that grant expenditures are adequately supported and allocated
       equitably.


Department Response
Department officials concurred with the finding and recommendations.

FWS Response
FWS Regional officials concurred with the finding and recommendations and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendations resolved but not implemented (see
Appendix 3).

   2. Excess Reimbursement Due to Incorrect Reporting of Program
      Income: $15,149

Federal regulations allow grantees to earn income because of grant-supported
activities, but they must account for the income in an agreed-upon manner.
Typically, they should report the gross “program income” received and report
associated expenses as grant outlays. The Department was approved to use the
additive method for reporting program income on the Federal financial reports
(SF-425) for most grants. Under the additive method, 75 percent of the income is
added to the Federal share of expenditures and 25 percent is included in the State
share of expenditures.

We found, however, that the Department incorrectly reported its share of
expenditures and the Federal share of program income on nine SF-425s submitted
to FWS.

On grant F-19-E-23, the incorrect calculation of program income resulted in an
overstatement of the State’s share and an excess reimbursement of $15,149.

Federal regulations (43 C.F.R. § 12.61(f)(2)) require that grantees disburse
program income before requesting reimbursement. FWS sent the Department’s
prior business manager an email explaining how to calculate and report the
Federal and State shares of program income, but the instructions were not



                                                                                     6
followed. As a result, the Department received an excess reimbursement of
$15,149.

We issued a Notice of Potential Findings and Recommendations (NPFR) to the
Department addressing our concerns related to the calculation of program income
on the SF-425s. In response to our NPFR, the Department submitted revised SF-
425s to FWS.

 Recommendations

 We recommend that FWS work with the Department to:

     1. Resolve the excess reimbursement of $15,149 on grant F-19-E-23; and

     2. Ensure corrected financial reports are submitted for the nine grants to
        reflect accurate recipient and Federal shares of expenditures and
        Federal program income.


Department Response
Department officials concurred with the finding and recommendations.

FWS Response
FWS Regional officials concurred with the finding and recommendations and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendations resolved but not implemented (see
Appendix 3).

    3. Ineligible and Unsupported Mileage Expenses: $14,469

Department employees use State vehicles to accomplish grant objectives and
record mileage on log sheets. This information is used to determine charges to
Program grants. Based on our review, we found that the Department charged
mileage costs to Program grants for nongrant activities and for costs that were
inadequately supported.

Federal regulations (2 C.F.R. part 225, Appendix A, Subsections C.1., a, b, and j)
require that to be allowable under Federal awards, costs must be necessary and
reasonable, allocable, and adequately documented. In addition, 2 C.F.R. part 225,
Appendix A, Subsection C.3.a., states that to be allowable, a cost is allocable to a
particular cost objective if the goods or services involved are chargeable in
accordance with relative benefits received. Lastly, the State’s Agency of
Administration, Bulletin No. 2.3, states that taking a State vehicle home more



                                                                                   7
than 30 days per year requires the written approval of the Secretary of
Administration.

We determined that Department employees inconsistently record mileage charged
to Program grants because they do not have proper guidance on how to complete
the mileage logs. For example, an employee who worked on multiple projects
charged all of his mileage to Program grants F-18-D-30 and F-18-D-31. The
mileage included his commute to and from his duty station, which is a nongrant
activity. No documentation existed to determine mileage related to each grant
activity or how many days he commuted. Therefore, we question $6,903 ($5,177
Federal share) to grant F-18-D-30 and $10,275 ($7,706 Federal share) to grant F-
18-D-31 as unsupported charges.

We also found that another employee recorded mileage to projects based on travel
to and from specific sites, not all of which should have been charged as grant
activity. As a result, we question $2,115 ($1,586 Federal share) in mileage costs
charged to Program grant F-19-E-23 that were not related to grant activities.

We issued an NPFR to the Department detailing our concern that Department
employees improperly charged Program grants with mileage expenses incurred
from nongrant activities. In response, the Department submitted revised financial
reports and a plan to FWS to resolve the recommendations.

Recommendations

We recommend that FWS work with the Department to:

    1. Resolve the questioned costs totaling $14,469; and

    2. Establish and implement guidance to ensure that employees properly
       and consistently log and support mileage expenses to reflect actual
       miles benefiting Program grants.


Department Response
Department officials concurred with the finding and recommendations.

FWS Response
FWS Regional officials concurred with the finding and recommendations and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendations resolved but not implemented (see
Appendix 3).




                                                                                    8
   4. Potential Excess Reimbursements due to Overstated In-Kind
      Contributions: $11,501

States must use “State matching” (non-Federal) funds to cover at least 25 percent
of costs incurred in performing projects under the grants. The Department
included noncash (“in-kind”) contributions in its matching share of costs on some
of its Program grants. Federal regulations (2 C.F.R. part 225, Appendix A,
Section C.1.j.) state that for a cost to be allowable under Federal awards, the cost
must be adequately documented. Also, 43 C.F.R. § 12.64(a)(2) and (b)(6) outline
requirements for matching or cost-sharing records and state that the value of third-
party in-kind contributions counting toward satisfying a cost-sharing or matching
requirement must be verifiable.

The Department’s methodology for reporting in-kind contributions for seven
grants resulted in overstated expenditures of $85,353 on seven SF-425s. While
preparing the reports, the Department’s former business manager calculated the
recipient share of expenditures by dividing the in-kind value by 75 percent—the
Federal grant participation rate. This methodology increased the in-kind value to
an amount greater than documented in the Department’s records. Department
officials stated that they are no longer using this methodology. Our review
determined that two of the seven grants had sufficient expenditures to cover the
required matching share; therefore, we questioned costs totaling $11,501 on five
grants (see table below).

                  In-Kind                                    Overstatement of
                Contributions           Actual In-Kind          Recipient
Grant No.
             Claimed on Federal         Contributions            Share of
              Financial Report                                Expenditures
F-19-E-22            $33,408                $25,056                  $8,352
W-33-R-49              4,019                  3,014                   1,005
W-33-R-50              4,504                  3,378                   1,126
W-47-R-18              3,463                  2,597                     866
W-47-R-19                606                    454                     152
Total                                                              $11,501

We issued an NPFR to the Department addressing our concerns related to the
calculation of in-kind contributions when preparing the SF-425s. In response to
our recommendation, the Department submitted revised SF-425s to FWS.




                                                                                    9
 Recommendations

 We recommend that FWS work with the Department to:

     1. Resolve the questioned costs totaling $11,501; and

     2. Ensure corrected financial reports are submitted for the seven grants
        to reflect accurate in-kind contributions and recipient and Federal
        shares of expenditures.


Department Response
Department officials concurred with the finding and recommendations.

FWS Response
FWS Regional officials concurred with the finding and recommendations and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendations resolved but not implemented (see
Appendix 3).

B. Potential License Revenue Diversion: $3,841

The Department sells hunting and fishing licenses and collects fees from hunters
and anglers. We found that the Department did not maintain sufficient supporting
documentation or adequately review journal entries to demonstrate that revenue
from sales of these licenses was used appropriately. Under the Program, the
Department must use revenue from these sales only for the administration of the
fish and wildlife agency (50 C.F.R. § 80.21). During our audit, we discovered a
journal entry that charged the license fund $3,841 for “other contract and third
party services.” The Department could not provide documentation to support this
entry. As a result, we classify the $3,841 charge as a potential diversion of license
revenue.

 Recommendations

 We recommend that FWS work with the Department to:

    1. Resolve the potential diversion of license revenues of $3,841; and

    2. Follow procedures that ensure costs are adequately supported and
       reviewed.




                                                                                  10
Department Response
Department officials concurred with the finding and recommendations.

FWS Response
FWS Regional officials concurred with the finding and recommendations and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendations resolved but not implemented (see
Appendix 3).

C. Inadequate Control of Real Property

We determined that neither FWS nor Department officials have completed
reconciliation of records of real property acquired using Program funds. In
addition, Department officials stated that they have identified at least four
properties with potential encroachments by neighboring landowners onto Wildlife
Management Areas purchased with license revenue and Program funds.

We found that the Department has not committed sufficient resources to perform
the land surveys needed to identify and resolve these encroachment issues. To
ensure that real property acquired under Program grants continues to serve the
purpose for which it was acquired, the Department must ensure that its database
of real property acquired with Program grant funds is accurate and complete and
reconciles with land records maintained by FWS (50 C.F.R. § 80.90(f)).

Federal regulations (50 C.F.R. § 80.135(a)) require that when an agency allows a
use of real property that interferes with its authorized purpose, the agency must
restore the property to its authorized purpose or replace it with property of equal
value at current price and benefits consistent with the original grant. The FWS
Director also reiterated land management requirements to Program participants in
a March 29, 2007 letter, requesting that each State maintain a real property
management system that includes a comprehensive inventory of lands acquired
with both Federal financial assistance and State hunting and fishing license
revenue to ensure that its inventory is accurate and complete.

Department officials told us that they had started the reconciliation process, but
until a complete reconciliation occurs, neither the Department nor FWS can
ensure that lands acquired under the Program are being used for their intended
purposes. Furthermore, without performing the necessary land surveys, the
Department cannot ensure that the lands encroached upon are available for their
originally intended purposes.




                                                                                     11
Recommendations

We recommend that FWS work with the Department to:

    1. Ensure that the Department reconciles its real property records with
       those of FWS;

    2. Resolve encroachment issues on lands purchased with Program funds
       and license revenue; and

    3. Establish a schedule to regularly review its lands for encroachments
       and timely resolve identified issues.


Department Response
Department officials concurred with the finding and recommendations.

FWS Response
FWS Regional officials concurred with the finding and recommendations and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendations resolved but not implemented (see
Appendix 3).

D. Unreported Program Income: $8,460

We found that the Department did not report program income, totaling $8,460,
earned from selling fish eggs and permits to import or breed fish during SFYs
2011 and 2012. The hatchery producing the eggs and the biologists working on
the permits charged the associated costs to grants F-31-D-20 and F-31-D-21.

Federal regulations (43 C.F.R. § 12.65(b)) define program income as gross
income a grantee receives that is “directly generated by a grant supported activity,
or earned only as a result of the grant agreement during the grant period.” The
regulations (43 C.F.R. § 12.61(f)(2)) permit program income to be added to the
funds committed to the grant agreement by the Federal agency and the grantee
and to be used for grant purposes. The regulations also require that grantees
disburse program income, and interest on such funds before requesting
reimbursement. Under the Department’s Fish Culture Operations grant, FWS
provided that program income should be added to grant funds and used for grant-
related purposes.

According to Department officials, grant reimbursements were not affected by
these sales because an amount equal to the revenue earned from fish egg sales was
deducted from grant expenditures. They said that the revenue earned from permit


                                                                                 12
fees was used for grant purposes because the Department spent more than its
required matching share of expenditures.

Although the Department failed to report the $8,460 as program income, we
determined that there was no effect on grant reimbursement because the
Department did spend more than the amounts required to justify reimbursements
under the grants. Proper identification and reporting of future program income
will help the Department and FWS to ensure appropriate accounting for program
income and that program income is used for the purposes of the grant agreement.

In response to our NPFR that addressed our concerns related to unreported
program income, the Department submitted revised financial reports and a plan to
resolve the recommendation.

Recommendation

We recommend that FWS work with the Department to ensure that it
identifies and reports revenues earned from grant-supported activities as
program income on an SF-425 in accordance with the grant agreement and
Federal regulations.


Department Response
Department officials concurred with the finding and recommendation.

FWS Response
FWS Regional officials concurred with the finding and recommendation and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendation resolved but not implemented (see
Appendix 3).

E. Unsupported Payroll Cost Allocations

During our audit, we found that FWS awarded the Department an annual Fish and
Wildlife Coordination grant that included funding for a Federal grant coordinator
and an accountant. These two employees worked on various Federal assistance
grants, including Program grants and the State Wildlife Grant. Although the
payroll system used by the Department has the capability to record the amount of
time an employee spends on a project, we found that these two employees
charged labor based on predetermined percentages instead of actual hours
worked. The two employees charged 75 percent of their time to grants FW-19-C-
20 and FW-19-C-21 and 25 percent of their time to nongrant project codes based
on the methodology used by the prior accounting staff. They did not track their
time to support the hours charged to these grants. As a result, the Department may


                                                                               13
have been reimbursed for payroll costs that did not represent the actual number of
hours worked on Program grants.

According to 2 C.F.R. part 225, Appendix A, Subsection C.3.a., to be allowable
under Federal awards, a cost is allocable to a particular cost objective if the goods
or services involved are chargeable in accordance with relative benefits received.
In addition, 2 C.F.R. part 225, Appendix B, Section 8.h.(4), states that “where
employees work on multiple activities or cost objectives, a distribution of their
salaries or wages will be supported by personnel activity reports.” Furthermore,
2 C.F.R. part 225, Appendix B, Section 8.h.(5)(e), notes that budget estimates or
other distribution percentages determined before the services are performed do
not qualify as support for charges to Federal awards.

We issued an NPFR detailing our concerns related to unsupported payroll cost
allocations. In response, the Department submitted a plan to FWS to resolve the
recommendation.

 Recommendation

 We recommend that FWS work with the Department to implement policies
 and procedures to ensure payroll expenses are properly supported by
 personnel activity reports reflecting actual time worked on program grants.


Department Response
Department officials concurred with the finding and recommendation.

FWS Response
FWS Regional officials concurred with the finding and recommendation and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendation resolved but not implemented (see
Appendix 3).

F. Inadequate Equipment Management and Records

Federal and State regulations require that grantees maintain adequate control and
accountability over Program-funded equipment to ensure that the equipment
serves the purpose for which it was acquired. To test the Department’s
compliance with Federal and State requirements, we reviewed the Department’s
Asset Management Module (AMM) of the State’s financial system, Vermont
Integrated Solution for Information and Organizational Needs, and selected 44
equipment items for testing.




                                                                                   14
Based on our review, we found that the Department had not adequately controlled
fixed assets purchased with Program funds and license revenue. Specifically, we
found that—

   •   a truck that had been disposed of in 2011 was still on the inventory;
   •   a tractor was included on the inventory twice;
   •   38—or 86 percent—of the items selected for review did not have property
       tags affixed;
   •   two items were used for purposes unrelated to fish and wildlife: an all-
       terrain vehicle that was purchased under grant W-46-D and stored in a
       Vermont Forest, Parks and Recreation Department facility, and a printer
       that was purchased with license funds was used by employees from other
       departments;
   •   15 items were listed on the inventory with the location of “Waterbury,”
       but equipment from this site was moved to various other sites after a flood
       in 2011, and Department personnel did not update AMM to reflect the
       new locations;
   •   computers were entered into AMM with a State information technology
       storage area location code when purchased, and the inventory was not
       always updated to reflect current locations; and
   •   25—or 57 percent—of the items reviewed were entered into the system
       with incorrect information, such as a serial number or location.

Federal regulations (50 C.F.R. § 80.90(a) and (f) and 43 C.F.R. § 12.72(b))
require that equipment purchased with Program funds be controlled and used only
for Program activities and that each State must follow its own laws and
procedures when managing equipment.

The State’s Asset Management Procedures, Part I, 1 a., and Part III, 2, require
fixed assets costing $5,000 or more and computers costing $1,000 or more to be
properly recorded in AMM. The procedures require the Department to maintain
equipment data related to the acquisition fund code and location and to assign
items a property tag number. The procedures also require the Department to
record disposal of equipment and to make adjustments resulting from annual
physical inventories.

The Department did not follow the State’s requirement to attach property tags to
items and to enter specific details of equipment acquisitions into the inventory
listing.

During our site visits, we found that Department personnel responsible for
managing equipment expressed uncertainty about their duties. Department
officials assign property tag numbers when entering acquisitions into AMM, but
they did not provide, or advise staff to use, property tags. As a result, the
Department cannot ensure that equipment purchased with Program funds is being



                                                                                15
used for its intended purpose or that license-funded equipment is used solely for
fish and wildlife purposes.

Although our prior audit report (Report No. R-GR-FWS-0013-2007) identified
the issue of inadequate equipment management, and FWS and the Office of
Policy, Management and Budget closed the recommendations, we again make
recommendations to resolve this issue.

Recommendations

We recommend that FWS work with the Department to:

    1. Follow the State’s procedures to update the data in AMM to reflect
       the correct status and location of items;

    2.   Clarify and communicate the responsibilities of staff in charge of
         equipment management, including ensuring all items are tagged; and

    3. Implement policy and procedures to ensure equipment is used for
       approved purposes or to reimburse the Department for grant
       expenses and license funds used.


Department Response
Department officials concurred with the finding and recommendations.

FWS Response
FWS Regional officials concurred with the finding and recommendations and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendations resolved but not implemented (see
Appendix 3).




                                                                                16
Appendix 1
                            State of Vermont
                     Agency of Natural Resources
                   Department of Fish and Wildlife
                Financial Summary of Review Coverage
                  July 1, 2010, Through June 30, 2012

FWS Grant FBMS Grant        Grant        Claimed      Ineligible      Un-
 Number    Number          Amount         Costs         Costs      supported
                                                                     Costs
 F-18-D-30         -         $545,000     $556,647                      $5,177
 F-18-D-31    F11AF00436       605,000      786,165                      7,706
  F-19-E-22        -           275,527      213,778       $8,352
  F-19-E-23   F12AF00137       275,527      231,226        1,586        15,149
 F-22-D-51         -            31,482       48,069
 F-22-D-54         -            40,425       36,540
 F-22-D-55         -            68,040       77,427
 F-22-D-56    F11AF00840        72,000       71,667
 F-31-D-20         -         2,918,478    2,790,644
 F-31-D-21    F12AF00143     2,950,136    2,873,016
  F-34-R-13        -           175,000      163,224
  F-34-R-14   F12AF00142       175,000       89,043
  F-35-R-13        -           750,000      501,229
  F-35-R-14   F12AF00139       780,000      494,742
  F-36-R-13        -         1,150,000    1,029,339
  F-36-R-14   F12AF00138     1,150,000    1,003,450
 F-100-R-27        -             5,000        4,999
 F-100-R-28        -             5,000        5,000
 F-100-R-29   F12AF00001         5,000        5,000
FW-17-T-37         -           900,000      829,611
FW-17-T-38    F11AF00387       914,000    1,016,614
FW-19-C-20         -           109,900      142,213
FW-19-C-21    F11AF00416       160,888      152,449                        5,333
 W-33-R-49    F11AF00381       170,400      166,856        1,005
 W-33-R-50    F11AF00381       170,400      162,100        1,126
 W-34-R-48    F10AF00473       266,667      273,233
 W-34-R-49    F11AF00379       310,000      299,011
 W-35-R-39    F07AF00070        42,000       42,000
 W-35-R-40    F12AF00238         7,000        7,000
 W-37-R-43    F10AF00441        73,500       70,511
 W-37-R-44    F11AF00424        73,500       61,688


                                                                      17
FWS Grant FBMS Grant       Grant      Claimed       Ineligible      Un-
 Number    Number         Amount       Costs          Costs      supported
                                                                   Costs
W-38-R-43   F10AF00467        $97,000     $77,111
W-38-R-44   F11AF00380         97,000      97,300
W-41-S-40        -            645,750     908,171
W-41-S-41   F11AF00513        679,083     794,250
W-45-R-31   F10AF00466        252,662     222,861
W-46-D-30   F10AF00431      2,276,820   1,408,243
W-46-D-31   F11AF00568      1,121,100   1,036,998                   $11,045
W-47-R-18        -            173,000     188,851         $866
W-47-R-19   F11AF00473        172,000     121,312          152
W-61-L-1         -             43,100           -
W-62-D-1    F10AF00497        213,333     249,292
W-63-C-1    F11AF00853         40,000           -
W-63-C-2         -                  -           -
W-64-L-1    F11AF00849        621,099      71,220
 Total                   $21,606,817 $19,380,100      $13,087       $44,410




                                                                    18
Appendix 2
                   State of Vermont
              Agency of Natural Resources
             Department of Fish and Wildlife
                     Sites Visited

                      Headquarters
                       Montpelier

                      Regional Office
                           Barre

            Wildlife Habitat Management Area
                         Sandbar

                   Fish Culture Stations
                         Ed Weed
                         Salisbury

                       Boat Ramps
                   Chittenden Reservoir
     Magoon (Lake Dunmore) Boat Access Area, Salisbury

                         Other
                   Montpelier Gun Club




                                                         19
Appendix 3
                             State of Vermont
                        Agency of Natural Resources
                      Department of Fish and Wildlife
              Status of Audit Findings and Recommendations

Recommendations              Status                 Action Required
A.1.1, A.1.2, A.2.1,     We consider the       Based on the FWS response,
A.2.2, A.3.1, A.3.2,    recommendations         the corrective action plan
A.4.1, A.4.2, B.1,       resolved but not    should include specific action(s)
B.2, C.1, C.2, C.3,       implemented.         taken or planned to address
D, E, F.1, F.2, and                          the recommendations, targeted
F.3.                       FWS regional      completion dates, title(s) of the
                        officials concurred      official(s) responsible for
                       with the findings and implementing the action taken
                        recommendations      or planned, and verification that
                        and will work with      FWS headquarters officials
                       the Department on        reviewed and approved of
                        a corrective action actions taken or planned by the
                                 plan.       Department. We will refer any
                                                       unimplemented
                                              recommendations by October
                                                30, 2014, to the Assistant
                                                   Secretary for Policy,
                                               Management and Budget for
                                                 implementation tracking.

E.1 and E.2 (from      We consider these       Provide documentation to the
our prior report,      recommendations         Assistant Secretary for Policy,
No. R-GR-FWS-           resolved but not         Management and Budget
0005-2004)               implemented.          regarding the implementation
                                                of these recommendations.
                          The Assistant
                       Secretary for Policy,
                         Management and
                        Budget considers
                              these
                        recommendations
                              open.




                                                                                 20
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
